Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   EXCESSIVE MEDICARE
      REIMBURSEMENT
 FOR IPRATROPIUM BROMIDE




                    JANET REHNQUIST
                      Inspector General

                           MARCH 2002
                          OEI-03-01-00411
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                         EXECUTIVE                     SUMMARY



PURPOSE

         This report compares the amount Medicare reimburses for ipratropium bromide to the prices
         available to the Department of Veterans Affairs (VA) and acquisition costs for suppliers.



BACKGROUND

         Medicare does not pay for over-the-counter or most outpatient prescription drugs. However,
         Medicare Part B will cover drugs that are necessary for the effective use of durable medical
         equipment. One such product, ipratropium bromide, is an inhalation drug commonly used with
         a nebulizer to treat patients suffering from bronchitis or emphysema. Medicare and its
         beneficiaries paid $348 million for ipratropium bromide in 2000. Medicare reimburses a
         covered drug at 95 percent of the drug’s average wholesale price. Medicare payments include
         both the 80 percent that Medicare reimburses and the 20 percent coinsurance payment for
         which beneficiaries are responsible.

         Ipratropium bromide is usually provided to Medicare beneficiaries by suppliers, who then
         submit claims for reimbursement to Medicare. Suppliers can purchase drugs through group
         purchasing organizations, wholesalers, and directly from manufacturers. Unlike Medicare, the
         VA provides veterans with drugs purchased directly from manufacturers or wholesalers. There
         are several purchase options available to the VA, including the Federal Supply Schedule,
         blanket purchase agreements, and VA national contracts.

         We compared Medicare’s current reimbursement amount for ipratropium bromide to amounts
         paid by the VA and acquisition costs for suppliers and wholesalers. We obtained
         reimbursement amounts for ipratropium bromide from Medicare and acquisition costs from the
         VA. To obtain supplier and wholesaler acquisition costs, we collected prices from wholesale
         catalogs, supplier invoices, and Drug Topics Red Book.




Medicare Reimbursement for Ipratropium Bromide     i                                      OEI-03-01-00411
FINDINGS

Medicare and its beneficiaries would save $279 million a year if ipratropium
bromide were reimbursed at the median price paid by the VA

         The Medicare reimbursement amount for ipratropium bromide is more than five times greater
         than the VA price. The VA purchases generic ipratropium bromide through the Federal Supply
         Schedule for a median price of only $0.66 per milligram (mg), while Medicare reimburses
         $3.34 per mg. We estimate that Medicare and its beneficiaries would save $279 million a year
         if reimbursement for ipratropium bromide were set at the median amount available to the VA.
         Medicare beneficiaries would receive $56 million of this savings through reduced coinsurance
         payments. The VA’s median acquisition cost for ipratropium bromide through the Federal
         Supply Schedule has fallen by almost       50 percent over the last three years, from $1.29 per
         mg in 1998 to $0.66 per mg in 2001. During the same time period, Medicare’s reimbursement
         amount has remained constant at $3.34 per mg.

Medicare and its beneficiaries would save between $223 million and $262 million a
year if ipratropium bromide were reimbursed at prices available to suppliers

         We found that the median catalog price of ipratropium bromide was $0.82 per mg, the median
         supplier invoice price was $1.18 per mg, and the median wholesale acquisition cost reported by
         manufacturers was $1.20 per mg. If Medicare based ipratropium bromide reimbursement on
         these prices, the program and its beneficiaries would save between $223 million and $262
         million a year.

Less than 1 percent of ipratropium bromide suppliers were responsible for
providing the majority of the product to Medicare beneficiaries in 2000

         Medicare reimbursed 5,652 pharmaceutical suppliers for ipratropium bromide claims in 2000.
         However, just 23 suppliers received more than $2 million each in reimbursement for
         ipratropium bromide that year, with five suppliers having between $10 million and $58 million in
         paid claims. These 23 suppliers, who all provided home-delivery/mail order services to
         beneficiaries, received nearly 60 percent of the Medicare payments for ipratropium bromide in
         2000. Therefore, the majority of the ipratropium bromide supplied to Medicare beneficiaries
         was provided by suppliers that purchase a large quantity of the product. We believe that
         suppliers that purchase such large quantities of ipratropium bromide may receive volume
         discounts from manufacturers and wholesalers.




Medicare Reimbursement for Ipratropium Bromide      ii                                       OEI-03-01-00411
RECOMMENDATION

Medicare should reduce excessive reimbursement amounts for ipratropium
bromide

         Despite numerous attempts by the Centers for Medicare & Medicaid Services (CMS) to lower
         reimbursement amounts for prescription drugs, the findings of this report illustrate that Medicare
         pays too much for ipratropium bromide. We have consistently found that the published average
         wholesale prices currently used by Medicare to establish reimbursement amounts bear little or
         no resemblance to actual wholesale prices that are available to suppliers and large government
         purchasers.

         We understand that unlike most drugs covered by Medicare, ipratropium bromide is usually
         provided by suppliers rather than administered by physicians. These suppliers obviously need
         to make a profit from the products they provide, yet the spread between what Medicare
         reimburses for ipratropium bromide and the price at which suppliers are able to purchase the
         drug is significant. Reimbursement levels for ipratropium bromide not only impact the Medicare
         program, but also affect Medicare beneficiaries who pay increased coinsurance amounts.

         We offer the following options for reducing excessive reimbursement amounts for covered
         drugs:

         <         Authorizing a commission to set payment rates.

         <	        Calculating national estimated acquisition costs based upon the average manufacturer
                   prices reported to the Medicaid program.

         <	        Collecting more accurate average wholesale prices from drug pricing catalogs or other
                   sources.

         <         Increasing the discount of the published average wholesale prices.

         <         Basing payment on physician/supplier acquisition costs.

         <         Establishing manufacturers’ rebates similar to those used in the Medicaid program.



Medicare Reimbursement for Ipratropium Bromide        iii                                      OEI-03-01-00411
         <         Creating a fee schedule for covered drugs based on the Federal Supply Schedule.

         <         Using CMS’ inherent reasonableness authority.

         <         Using competitive bidding.



Agency Comments

         The CMS agreed that the amounts being reimbursed for drugs in the Medicare program are
         excessive, and that it is clear that the payment system for outpatient drugs needs revision. The
         agency noted that it must find a way to ensure that the program pays appropriately for all
         Medicare benefits, including covered drugs and the services required to furnish those drugs.
         The CMS went on to state that they are looking forward to working with the Congress and the
         OIG to revise the Medicare payment system for prescription drugs.




Medicare Reimbursement for Ipratropium Bromide      iv                                        OEI-03-01-00411
                                 TABLE                    OF           CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Department of Veterans Affairs Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Supplier Acquisition Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Suppliers Reimbursed by Medicare . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9




RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


          A. Selected OIG Reports on Drug Reimbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B. Calculation of Potential Savings for Ipratropium Bromide . . . . . . . . . . . . . . . . . . . . . . . . 13


          C. Centers for Medicare & Medicaid Services Comments . . . . . . . . . . . . . . . . . . . . . . . . . 14





Medicare Reimbursement for Ipratropium Bromide                     v                                                     OEI-03-01-00411
                                     INTRODUCTION

PURPOSE

         This report compares the amount Medicare reimburses for ipratropium bromide to the prices
         available to the Department of Veterans Affairs (VA) and acquisition costs for suppliers.



BACKGROUND

Medicare Coverage of Ipratropium Bromide

         Medicare does not pay for over-the-counter or most outpatient prescription drugs. However,
         Medicare Part B will cover drugs that are necessary for the effective use of durable medical
         equipment. One such product, ipratropium bromide, is an inhalation drug commonly used with
         a nebulizer to treat patients suffering from chronic bronchitis or emphysema. Ipratropium
         bromide is usually provided to beneficiaries by suppliers, who then submit claims for
         reimbursement to Medicare. Medicare and beneficiary payments for ipratropium bromide have
         risen substantially over the last several years, from $14 million in 1995 to $348 million in 2000.
         Payments for ipratropium bromide accounted for more than half of the $683 million Medicare
         paid for all inhalation drugs in 2000. Medicare payments include both the 80 percent that
         Medicare reimburses and the 20 percent coinsurance payment for which beneficiaries are
         responsible.

Medicare Drug Reimbursement

         The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
         program, contracts with four durable medical equipment regional carriers to process all claims
         for durable medical equipment and associated supplies including inhalation drugs. Each carrier
         is responsible for determining the reimbursement amount for inhalation drugs in their respective
         region based on Medicare’s reimbursement methodology.

         Medicare’s current reimbursement methodology for prescription drugs is defined by Section
         4556 of the Balanced Budget Act of 1997. The carriers base their reimbursement amount for a
         covered drug on its average wholesale price as published in Drug Topics Red Book or similar
         pricing publications used by the pharmaceutical industry. If a drug is available only as a single
         brand-name product, reimbursement is calculated by taking 95 percent of the drug’s average
         wholesale price. For drugs like ipratropium bromide that have both brand and generic sources
         available, reimbursement is based on 95 percent of the median average wholesale price for



Medicare Reimbursement for Ipratropium Bromide       1                                         OEI-03-01-00411
         generic sources. However, if a brand-name product’s average wholesale price is lower than
         the median generic price, Medicare reimburses 95 percent of the lowest brand price.




Medicare Reimbursement for Ipratropium Bromide    2                                      OEI-03-01-00411
Recent Attempts to Lower Medicare Drug Reimbursement

         Section 4316 of the Balanced Budget Act of 1997 allows the Department of Health and
         Human Services to diverge from Medicare’s statutorily defined payment method if the method
         results in payment amounts which are not inherently reasonable. In late 1998, CMS regional
         carriers attempted to use this authority to lower what it considered excessive reimbursement for
         several items. However, the lower reimbursement amounts were never implemented as
         Congress suspended the use of inherent reasonableness through a provision of the Medicare,
         Medicaid, and SCHIP Balanced Budget Refinement Act of 1999. This provision required (1)
         the General Accounting Office (GAO) to complete a study on the potential effects of using
         inherent reasonableness measures, and (2) the Department of Health and Human Services to
         publish new inherent reasonableness regulations based on the findings of the GAO report. The
         GAO report, issued in July 2000, found that inherent reasonableness reductions for some items
         were justified; however, the GAO questioned the methodology the carriers used in their
         collection of pricing data for other items. The Department has not issued any new inherent
         reasonableness regulations since the publication of the GAO report.

         The CMS has also included ipratropium bromide and several other inhalation drugs in a
         competitive bidding project in the San Antonio, Texas area that seeks to use market forces to
         set accurate reimbursement amounts for durable medical equipment and related supplies. In
         November 2000, CMS announced the selection of durable medical equipment suppliers who
         had submitted competitive bids for the included items. New reimbursement amounts for these
         items went into effect on February 1, 2001. The new reimbursement amount for ipratropium
         bromide set by the competitive bidding process is approximately 24 percent below the usual
         Medicare amount. The CMS hopes to use the results from these demonstrations more
         generally in the Medicare program.

         On May 31, 2000, CMS announced plans for Medicare to utilize newly available average
         wholesale prices for approximately 50 drugs. The new prices were developed for Medicaid
         through investigations conducted by the Department of Justice and the National Association of
         Medicaid Fraud Control Units. The revised pricing data was obtained from wholesale pricing
         catalogs and then provided to First DataBank, publisher of a pricing compendium used by the
         pharmaceutical industry. First DataBank agreed to use the new data when reporting average
         wholesale prices to the States. However, the Medicare, Medicaid, and SCHIP Benefits
         Improvement and Protection Act of 2000, enacted by Congress in December 2000, placed a
         moratorium on any decreases in Medicare drug reimbursement amounts. The Act required
         GAO to complete a comprehensive study addressing both the appropriateness of drug
         reimbursement amounts and the adequacy of current payments for related practice expenses.
         The Department of Health and Human Services must then revise CMS’ drug reimbursement
         methodology based on GAO’s recommendations.




Medicare Reimbursement for Ipratropium Bromide      3                                        OEI-03-01-00411
         The GAO issued the first of two reports addressing drug pricing issues on September 21,
         2001. This report found that physicians and suppliers can obtain covered drugs for
         substantially less than the Medicare reimbursement amount. The GAO concluded that
         Medicare should revise its drug payment methodology to more closely reflect available market
         prices. The second report, to be released before the end of 2001, will address whether
         Medicare is adequately reimbursing certain Medicare providers for related practice expenses.

Department of Veterans Affairs Drug Reimbursement

         Unlike Medicare, the Department of Veterans Affairs (VA) purchases drugs for its healthcare
         system directly from manufacturers or wholesalers. There are several options available to the
         VA when purchasing drugs, with the most common being the Federal Supply Schedule. The
         Federal Supply Schedule provides agencies like the VA with a simple process for purchasing
         commonly used products in any quantity while still obtaining the discounts associated with
         volume buying. Using competitive procedures, contracts are awarded to companies to provide
         supplies over a given period of time at the Federal Supply Schedule price. However, the VA is
         sometimes able to negotiate prices lower than Federal Supply Schedule amounts through other
         avenues such as blanket purchase agreements and VA national contracts.

Cost of Drugs for Suppliers

         Suppliers can purchase drug products through group purchasing organizations, wholesalers, and
         directly from manufacturers. Group purchasing organizations provide their members with lower
         cost products by negotiating prices for specific drugs from manufacturers. The member can
         then purchase drugs at the negotiated price either directly from the manufacturer or from a
         wholesaler who accepts the group purchasing organization’s price. Wholesalers purchase large
         volumes of drugs from manufacturers and sell them directly to suppliers.

Related Work by the Office of Inspector General

         The Office of Inspector General (OIG) has studied a number of issues relating to Medicare
         drug reimbursement. Brief summaries of selected studies are presented in Appendix A.



METHODOLOGY

Medicare Reimbursement

         Medicare classifies drugs using codes in the Healthcare Common Procedure Coding System.
         These codes, commonly referred to as procedure codes, specify the type of drug, the form of



Medicare Reimbursement for Ipratropium Bromide     4                                       OEI-03-01-00411
         the drug, and in most cases a dosage amount. The procedure code for ipratropium bromide is
         J7644, defined as “ipratropium bromide, inhalation solution administered through durable
         medical equipment, unit dose form, per milligram (mg).” The term “unit dose” refers to a 2.5
         milliliter (ml) solution of 0.02 percent ipratropium bromide. We obtained current fee schedule
         reimbursement amounts for procedure code

         J7644 from the four durable medical equipment regional carriers. The reimbursement amount
         for ipratropium bromide was the same for each of the four carriers.

         We accessed CMS’ National Claims History File to determine Medicare’s total payments for
         ipratropium bromide and other inhalation drugs in 2000. We also used this file to analyze
         ipratropium bromide supplier data for the year 2000.

Matching Procedure Codes to National Drug Codes

         The VA and suppliers use national drug codes rather than procedure codes to identify drug
         products. Because of these coding differences, we used the April 2001 CD-ROM edition of
         Drug Topics Red Book to identify the specific national drug codes that match the procedure
         code definition for ipratropium bromide. Each drug manufactured or distributed in the United
         States has a unique national drug code. National drug codes identify the manufacturer of the
         drug, the product dosage form, and the package size. Because Medicare uses only generic
         versions of ipratropium bromide to determine its reimbursement amount, we only selected
         generic ipratropium bromide national drug codes. We found 17 national drug codes for generic
         ipratropium bromide that matched the procedure code definition of J7644.

         The procedure code for the unit dose form of ipratropium bromide is reimbursed per mg.
         However, VA prices and wholesale prices were all based on 2.5 ml vials of 0.02 percent
         ipratropium bromide solution. Consequently, we needed to convert ml prices of ipratropium
         bromide into mg prices. A 2.5 ml vial of 0.02 percent ipratropium bromide solution contains
         0.5 mg of the drug. Therefore, 1 ml of solution contains 0.2 mg of ipratropium bromide (0.5
         divided by 2.5). For each national drug code, we multiplied the number of milliliters of
         ipratropium bromide solution by 0.2 to determine the milligram amount, e.g., 75 ml of solution
         multiplied by 0.2 equals 15 mg. We then divided the drug price by the number of milligrams to
         determine a per mg price.

Department of Veterans Affairs Prices

         To determine the VA’s current costs for ipratropium bromide, we obtained a file from the VA
         website containing their 2001 contracted prices. The VA pricing file contained Federal Supply
         Schedule prices for 9 of the 17 matching ipratropium bromide national drug codes. To
         determine a single VA price, we calculated the median price per mg for these 9 codes.



Medicare Reimbursement for Ipratropium Bromide      5                                       OEI-03-01-00411
         We also compared the 2001 VA prices for ipratropium bromide to VA prices in the years
         1998 through 2000. We determined the total percentage change in VA prices between 1998
         and subsequent years. We then multiplied these numbers by the amount Medicare paid in a
         given year. These figures represent the amount Medicare total payments would have differed if
         the Medicare reimbursement amount changed at the same rate as the VA price. Since 2001
         payment data is not yet available, we estimated 2001 Medicare payments by using the dollar
         amount actually paid for ipratropium bromide in 2000.




Medicare Reimbursement for Ipratropium Bromide     6                                       OEI-03-01-00411
Prices Available to Suppliers and Wholesalers

         To determine actual wholesale prices for ipratropium bromide, we reviewed print and online
         catalogs for 2001 from three drug wholesalers and two group purchasing organizations. The
         five pricing sources we used provide drug products to suppliers and physician practices
         throughout the country. We computed a single catalog price for ipratropium bromide by
         calculating the median price per mg of the corresponding national drug codes.

         In addition to catalog prices, we also used actual ipratropium bromide invoices to determine
         supplier acquisition costs. The invoices were collected by the OIG during a review of inhalation
         drug utilization. The invoices were obtained during site visits to suppliers throughout the
         country, and were for ipratropium bromide purchased between June 1998 and June 2000. To
         determine a single invoice price, we calculated the median price per mg for the 48 invoice
         prices collected from suppliers.

         We also obtained manufacturer-reported wholesale acquisition costs from the April 2001 CD-
         ROM edition of Drug Topics Red Book. The Drug Topics Red Book defines wholesale
         acquisition cost as manufacturer-quoted list prices to wholesale distributors; these prices are not
         reflective of bids, rebates, volume purchase agreements, or other types of exclusive contracts.
         Five of the 17 ipratropium bromide national drug codes had wholesale acquisition costs
         reported in 2001. From these costs, we calculated a median per mg wholesale acquisition cost
         for ipratropium bromide.

Calculating Potential Medicare Savings

         To calculate potential Medicare savings, we compared Medicare’s reimbursement amount for
         1 mg of ipratropium bromide to VA prices, wholesale acquisition costs, catalog prices, and
         invoice prices. We determined the percentage difference in prices by subtracting the median
         source price from the Medicare reimbursement amount, and then dividing this number by the
         Medicare reimbursement amount. These percentages indicate how much Medicare would save
         if reimbursement for ipratropium bromide was based on prices provided by other sources. We
         then multiplied these percentages by the total amount Medicare paid for ipratropium bromide in
         2000 to calculate dollar savings. A table showing the data used to calculate potential savings is
         presented in Appendix B.

                                                 ___________

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Medicare Reimbursement for Ipratropium Bromide        7                                        OEI-03-01-00411
Medicare Reimbursement for Ipratropium Bromide   8   OEI-03-01-00411
                                                 FINDINGS

Medicare and its beneficiaries would save $279 million a year
if ipratropium bromide were reimbursed at the price paid by
the VA

The Medicare reimbursement amount for ipratropium bromide is over five times
greater than the median VA price

         The median Federal Supply Schedule price available to the VA for generic ipratropium
         bromide is only $0.66 per mg, compared to Medicare’s reimbursement of $3.34 per mg. We
         estimate that Medicare and its beneficiaries would save $279 million a year if reimbursement for
         ipratropium bromide were set at the median amount paid by the VA under the Federal Supply
         Schedule. The savings represent 80 percent of the $348 million Medicare paid for ipratropium
         bromide in 2000.

         Medicare beneficiaries would receive $56 million of the $279 million in savings through reduced
         coinsurance payments. A Medicare beneficiary using a typical monthly amount of ipratropium
         bromide (50 mg) would pay $33.40 in Medicare coinsurance. That coinsurance amount is
         slightly more than what the VA would pay outright ($33.00) to purchase one month’s supply of
         the drug. Table 1 below compares the Medicare reimbursement amount to median prices
         available to the VA. It also provides Medicare savings and beneficiary coinsurance based on
         Medicare reimbursement and VA prices.

                        TABLE 1: COMPARING MEDICARE REIMBURSEMENT TO VA PRICES

                                                      Cost of Typical        Monthly Medicare    Potential Annual
            Pricing Source              Median      Individual Monthly          Beneficiary       Medicare and
                  for                   Price             Usage              Coinsurance Based    Beneficiary
       Ipratropium Bromide              per mg            (50 mg)             on Source Price       Savings

 Medicare                                $3.34            $167.00                 $33.40               N/A

 Department of Veterans Affairs          $0.66            $33.00                   $6.60           $278,854,770

Sources: 2001 Medicare carrier and Department of Veterans Affairs websites


Between 1998 and 2001, the median VA cost for ipratropium bromide decreased
by almost half, while the Medicare reimbursement amount remained the same

         The median VA price for generic ipratropium bromide has fallen by almost 50 percent over the
         last three years, from $1.29 per mg in 1998 to $0.66 per mg in 2001. During the same time


Medicare Reimbursement for Ipratropium Bromide               9                                         OEI-03-01-00411
         period, Medicare’s reimbursement amount (based on reported average wholesale prices) has
         remained constant at $3.34 per mg. The graph on the next page illustrates the changes in VA
         and Medicare pricing over the last 3 years. If the Medicare reimbursement amount for
         ipratropium bromide decreased at a rate equal to the VA’s

         purchase price, Medicare and its beneficiaries would have saved $55 million in 1999 and $121
         million in 2000. The program could save $170 million in 2001.

                                GRAPH 1: COMPARISON OF IPRATROPIUM BROMIDE PRICES, 1998-2001
                              $3.50


                                       $3.34        $3.34           $3.34          $3.34

                              $3.00




                              $2.50




                              $2.00
               Price per mg




                                                                                   Medicare
                              $1.50
                                                                                   VA Median


                                       $1.29
                              $1.00
                                                    $1.01

                                                                    $0.84

                              $0.50                                                $0.66




                              $0.00
                                       1998          1999           2000           2001
                                                            Year




           Sources: Medicare carrier and Department of Veterans Affairs websites




Medicare Reimbursement for Ipratropium Bromide               10                                OEI-03-01-00411
Medicare and its beneficiaries would save between $223
million and $262 million a year if ipratropium bromide were
reimbursed at prices available to wholesalers and suppliers

Medicare payments for ipratropium bromide would be reduced by 75 percent if
reimbursement amounts were based on prices listed in wholesale catalogs

         Medicare and its beneficiaries would save $262 million a year if the reimbursement amount for
         ipratropium bromide equaled the median price available to suppliers through wholesalers and
         group purchasing organizations. This represents 75 percent of the $348 million Medicare and
         its beneficiaries paid for the drug in 2000. Catalog prices for generic ipratropium bromide
         ranged from a low of $0.64 per mg to a high of $1.56 per mg. The Medicare reimbursement
         amount ($3.34 per mg) was over four times more than the median catalog price ($0.82 per
         mg). Table 2 below compares the Medicare reimbursement amount to median prices available
         to suppliers and wholesalers. It also provides Medicare savings and beneficiary coinsurance
         based on various sources.

            TABLE 2 : COMPARING MEDICARE REIMBURSEMENT TO SUPPLIER/WHOLESALER PRICES

                                                     Cost of Typical         Monthly Medicare          Potential Annual
          Pricing Source                Median     Individual Monthly           Beneficiary              Medicare and
                 for                    Price            Usage               Coinsurance Based           Beneficiary
       Ipratropium Bromide              per mg            (50 mg)             on Source Price              Savings

 Medicare                                $3.34            $167.00                  $33.40                     N/A

 Wholesale Catalogs                      $0.82            $41.00                    $8.20                 $262,206,724

 Supplier Invoices                       $1.18            $59.00                   $11.80                $224,748,621

 Wholesale Acquisition Cost              $1.20            $60.00                   $12.00                $222,667,615

Sources: 2001 Medicare carrier websites, 2001 wholesale catalogs, 1998-2000 supplier invoices, 2001 Drug Topics Red Book


Medicare payments for ipratropium bromide would be reduced by 65 percent if
reimbursement amounts were based on supplier invoice prices

         Invoices reviewed by the OIG listed prices ranging from $0.95 to $1.46 per mg for ipratropium
         bromide purchased by suppliers between 1998 and 2000. The median price for ipratropium
         bromide purchased by these suppliers was $1.18 per mg, 65 percent less than the Medicare



Medicare Reimbursement for Ipratropium Bromide              11                                                OEI-03-01-00411
         reimbursement amount. Medicare and its beneficiaries would save $225 million a year if
         ipratropium bromide were reimbursed at the median invoice price.

Medicare payments for ipratropium bromide would be reduced by 64 percent if
reimbursement amounts were based on manufacturer-reported wholesale
acquisition costs

       Published wholesale acquisition costs for ipratropium bromide ranged from $1.12 to $1.20 per
       mg in April 2001. The median wholesale acquisition cost was $1.20 per mg. Individual drug
       manufacturers reported these wholesale acquisition costs to Drug Topics Red Book. The Drug
       Topics Red Book defines wholesale acquisition cost as manufacturer-quoted list prices to
       wholesale distributors; these prices are not reflective of bids, rebates, volume purchase
       agreements, or other types of exclusive contracts. If Medicare based its reimbursement for
       ipratropium bromide on manufacturer-reported wholesale acquisition costs rather than average
       wholesale prices, the program and its beneficiaries would save $223 million a year.




Less than 1 percent of ipratropium bromide suppliers were
responsible for providing the majority of the product to
Medicare beneficiaries in 2000

         Medicare reimbursed 5,652 pharmaceutical suppliers for ipratropium bromide claims in 2000.
         However, just 23 suppliers received more than $2 million each in reimbursement for
         ipratropium bromide that year, with five suppliers having between $10 million and $58 million in
         paid claims. These 23 suppliers, who all provided home-delivery/mail order services to
         beneficiaries, received nearly 60 percent of the Medicare payments for ipratropium bromide in
         2000. Therefore, the majority of the ipratropium bromide supplied to Medicare beneficiaries
         was provided by suppliers that purchase a large quantity of the product. We believe that
         suppliers that purchase such large quantities of ipratropium bromide may receive volume
         discounts from manufacturers and wholesalers.




Medicare Reimbursement for Ipratropium Bromide     12                                        OEI-03-01-00411
                               RECOMMENDATION

Medicare should reduce excessive reimbursement amounts for ipratropium
bromide

         Despite numerous attempts by CMS to lower reimbursement amounts for prescription drugs,
         the findings of this report illustrate that Medicare pays too much for ipratropium bromide. We
         have consistently found that the published average wholesale prices currently used by Medicare
         to establish reimbursement amounts bear little or no resemblance to actual wholesale prices that
         are available to suppliers and large government purchasers.

         We understand that unlike most drugs covered by Medicare, ipratropium bromide is usually
         provided by suppliers rather than administered by physicians. These suppliers obviously need
         to make a profit from the products they provide, yet the spread between what Medicare
         reimburses for ipratropium bromide and the price at which suppliers are able to purchase the
         drug is significant. Reimbursement levels for ipratropium bromide not only impact the Medicare
         program, but also affect Medicare beneficiaries who pay increased coinsurance amounts:

         We offer the following options for reducing excessive reimbursement amounts for covered
         drugs.

         <         Authorizing a commission to set payment rates.

         <	        Calculating national estimated acquisition costs based upon the average manufacturer
                   prices reported to the Medicaid program.

         <	        Collecting more accurate average wholesale prices from drug pricing catalogs or other
                   sources.

         <         Increasing the discount of the published average wholesale prices.

         <         Basing payment on physician/supplier acquisition costs.

         <         Establishing manufacturers’ rebates similar to those used in the Medicaid program.

         <         Creating a fee schedule for covered drugs based on the Federal Supply Schedule.

         <         Using CMS’ inherent reasonableness authority.




Medicare Reimbursement for Ipratropium Bromide       13                                       OEI-03-01-00411
         <         Using competitive bidding.

Agency Comments

         The CMS agreed that the amounts being reimbursed for drugs in the Medicare program are
         excessive, and that it is clear that the payment system for outpatient drugs needs revision. The
         agency noted that it must find a way to ensure that the program pays appropriately for all
         Medicare benefits, including covered drugs and the services required to furnish those drugs.
         The CMS went on to state that they are looking forward to working with the Congress and the
         OIG to revise the Medicare payment system for prescription drugs. The full text of CMS’
         comments is presented in Appendix C.




Medicare Reimbursement for Ipratropium Bromide      14                                        OEI-03-01-00411
                  Selected OIG Reports on Drug Reimbursement


Medicare Reimbursement of Prescription Drugs (OEI-03-00-00310), January 2001. We found

that Medicare and its beneficiaries would save $1.6 billion a year if 24 drugs were reimbursed at

amounts available to the VA. We also found that Medicare would save              $761 million a year by

paying the actual wholesale price for 24 drugs.


Medicare Reimbursement of Albuterol (OEI-03-00-00311), June 2000. We found that Medicare

and its beneficiaries would save $120 million or $209 million a year if albuterol was reimbursed at

amounts available through Medicaid and the VA, respectively. Medicare and its beneficiaries would

save $47 million or $115 million a year if Medicare reimbursed albuterol at prices available at chain and

Internet pharmacies.


Comparing Drug Reimbursement: Medicare and the Department of Veterans Affairs

(OEI-03-97-00293), November 1998. We found that Medicare would save $1 billion in 1998 if the

allowed amounts for 34 drugs were equal to prices obtained by the VA. Furthermore, Medicare

allowed between 15 and 1600 percent more than the VA for the 34 drugs reviewed.


Are Medicare Allowances for Albuterol Sulfate Reasonable? (OEI-03-97-00292), 

August 1998. We found that Medicare would allow between 56 to 550 percent more than the VA

would pay for generic versions of albuterol sulfate in 1998, and 20 percent more than the average

Medicaid payment for albuterol sulfate in 1997. We also found that Medicare allowed 333 percent

more than available acquisition costs for the drug in 1998. Customers of mail-order pharmacies would

pay up to 30 percent less than Medicare for albuterol sulfate in 1998.


Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290), December 1997. 

We found that Medicare allowances for 22 drugs exceeded actual wholesale prices by $447 million in

1996. For more than one-third of the 22 drugs reviewed, Medicare allowed amounts were more than

double the actual wholesale prices available to physicians and suppliers. Furthermore, we found that

there was no consistency among Medicare carriers in establishing and updating drug reimbursement

amounts. 


A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), June 1996. We found that many

of the pharmacies surveyed charged customers less than the Medicare allowed amount for generic

albuterol sulfate. The five buying groups surveyed had negotiated prices between 56 and 70 percent

lower than Medicare’s reimbursement amount for the drug.


Suppliers’ Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393), June 1996. We found

that Medicare’s allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs for

the drug. The Medicare program could have saved $94 million of the $182 million allowed for albuterol





Medicare Reimbursement for Ipratropium Bromide     15                                        OEI-03-01-00411
during the 14-month review period if Medicare reimbursement amounts had been based on average
supplier invoice costs.




Medicare Reimbursement for Ipratropium Bromide   16                                  OEI-03-01-00411
                                                                                   APPENDIX A

                  Selected OIG Reports on Drug Reimbursement


Medicare Reimbursement of Prescription Drugs (OEI-03-00-00310), January 2001. We found
that Medicare and its beneficiaries would save $1.6 billion a year if 24 drugs were reimbursed at
amounts available to the VA. We also found that Medicare would save
$761 million a year by paying the actual wholesale price for 24 drugs.

Medicare Reimbursement of Albuterol (OEI-03-00-00311), June 2000. We found that Medicare
and its beneficiaries would save $120 million or $209 million a year if albuterol was reimbursed at
amounts available through Medicaid and the VA, respectively. Medicare and its beneficiaries would
save $47 million or $115 million a year if Medicare reimbursed albuterol at prices available at chain and
Internet pharmacies.

Comparing Drug Reimbursement: Medicare and the Department of Veterans Affairs
(OEI-03-97-00293), November 1998. We found that Medicare would save $1 billion in 1998 if the
allowed amounts for 34 drugs were equal to prices obtained by the VA. Furthermore, Medicare
allowed between 15 and 1600 percent more than the VA for the 34 drugs reviewed.

Are Medicare Allowances for Albuterol Sulfate Reasonable? (OEI-03-97-00292),
August 1998. We found that Medicare would allow between 56 to 550 percent more than the VA
would pay for generic versions of albuterol sulfate in 1998, and 20 percent more than the average
Medicaid payment for albuterol sulfate in 1997. We also found that Medicare allowed 333 percent
more than available acquisition costs for the drug in 1998. Customers of mail-order pharmacies would
pay up to 30 percent less than Medicare for albuterol sulfate in 1998.

Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290), December 1997.
We found that Medicare allowances for 22 drugs exceeded actual wholesale prices by $447 million in
1996. For more than one-third of the 22 drugs reviewed, Medicare allowed amounts were more than
double the actual wholesale prices available to physicians and suppliers. Furthermore, we found that
there was no consistency among Medicare carriers in establishing and updating drug reimbursement
amounts.

A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), June 1996. We found that many
of the pharmacies surveyed charged customers less than the Medicare allowed amount for generic
albuterol sulfate. The five buying groups surveyed had negotiated prices between 56 and 70 percent
lower than Medicare’s reimbursement amount for the drug.

Suppliers’ Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393), June 1996. We found
that Medicare’s allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs for



Medicare Reimbursement for Ipratropium Bromide     17                                        OEI-03-01-00411
the drug. The Medicare program could have saved $94 million of the $182 million allowed for albuterol
during the 14-month review period if Medicare reimbursement amounts had been based on average
supplier invoice costs.




Medicare Reimbursement for Ipratropium Bromide   18                                      OEI-03-01-00411
                                                                                       APPENDIX
                                                                                       B

             Calculation of Potential Savings for
                             Ipratropium Bromide

(1)	     To determine percentage differences in ipratropium bromide prices, we subtracted the source
         price from the Medicare price. We then divided this number by the Medicare price.

(2)	     To calculate potential savings, we multiplied Medicare’s 2000 total payments ($347,527,960)
         for ipratropium bromide by the percentage difference in price.



                                                                                              Potential
                                                            Median   Medicare   Percentage   Medicare and
                                           Range of per     Price     Price     Difference   Beneficiary
 Price Source                               mg Prices       per mg    per mg     in Price*     Savings

 Department of Veterans Affairs            $0.59 to $0.73    $0.66     $3.34      80.2%      $278,854,770

 Wholesale Catalogs                        $0.64 to $1.56    $0.82     $3.34      75.4%      $262,206,724

 Supplier Invoices                         $0.95 to $1.46    $1.18     $3.34      64.7%      $224,748,621

 Wholesale Acquisition Cost                $1.12 to $1.20    $1.20     $3.34      64.1%      $222,667,615

*Percentage rounded to the nearest tenth




Medicare Reimbursement for Ipratropium Bromide              19                                 OEI-03-01-00411
                                                      APPENDIX
                                                      C

  Centers for Medicare and Medicaid Services
Comments




Medicare Reimbursement for Ipratropium Bromide   20        OEI-03-01-00411
                                                      APPENDIX
                                                      C




Medicare Reimbursement for Ipratropium Bromide   21        OEI-03-01-00411
